<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-323]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-323

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   PUBLIC LANDS, FORESTS, AND MINING

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


S. 242                               S. 499
S. 258                               S. 526
S. 434                               S. 1079
S. 490                               S. 1262
 


                               __________

                              MAY 14, 2019

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-306                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

                           MIKE LEE, Chairman

JOHN BARRASSO                        RON WYDEN
JAMES E. RISCH                       MARIA CANTWELL
STEVE DAINES                         DEBBIE STABENOW
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
CINDY HYDE-SMITH                     ANGUS S. KING, JR.
MARTHA McSALLY                       CATHERINE CORTEZ MASTO
JOHN HOEVEN

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Lee, Hon. Mike, Subcommittee Chairman and a U.S. Senator from 
  Utah...........................................................     1
Wyden, Hon. Ron, Subcommittee Ranking Member and a U.S. Senator 
  from Oregon....................................................     8
Heinrich, Hon. Martin, a U.S. Senator from New Mexico............    12
McSally, Hon. Martha, a U.S. Senator from Arizona................    13
Cortez Masto, Hon. Catherine, a U.S. Senator from Nevada.........    21
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................    48

                               WITNESSES

Udall, Hon. Tom, a U.S. Senator from New Mexico..................     3
Braun, Hon. Mike, a U.S. Senator from Indiana....................    49
Beum, Frank R., Acting Associate Deputy Chief, National Forest 
  System, USDA Forest Service....................................    51
Nedd, Michael, Deputy Director for Operations, Bureau of Land 
  Management, U.S. Department of the Interior....................    56

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Advisory Council on Historic Preservation:
    Letter for the Record........................................   102
American Forest Resource Council:
    Letter for the Record dated May 22, 2019, regarding S. 1262..   104
    Letter for the Record dated November 15, 2018................   108
American Rivers:
    Letter for the Record........................................   112
American Wind Energy Association:
    Letter for the Record........................................   114
Backcountry Hunters & Anglers, Nevada Chapter:
    Letter for the Record........................................    24
Baertschiger, Jr., Hon. Herman:
    Letter for the Record........................................   116
Baertschiger, Jr., Hon. Herman and Hon. Betsy Johnson:
    Letter for the Record........................................   118
Berkman, Budd:
    Comment for the Record.......................................   120
Beum, Frank R.:
    Opening Statement............................................    51
    Written Testimony............................................    53
    Responses to Questions for the Record........................    94
Blair, William J. ``Bill'':
    Letter for the Record........................................   121
Boice, Hon. Court:
    Opinion in The Register-Guard--Eugene, Oregon, dated January 
      20, 2019, entitled ``Boice: Oregon Wildlands Act won't 
      protect the Rogue''........................................   122
Brady, Stephen and Patricia:
    Letter for the Record........................................   124
Braun, Hon. Mike:
    Opening Statement............................................    49
    Written Testimony............................................    50
Bruch, Hon. Katherine A.:
    Letter for the Record........................................   125
Campbell, Mariel:
    Letter for the Record........................................   127
Cassidy, Hon. Bill:
    Statement for the Record.....................................   128
Cavanaugh-Bill Law Offices:
    Letter for the Record........................................    32
Center for Biological Diversity:
    Letter for the Record........................................    34
Chewning, Stephen and Joan:
    Letter for the Record........................................   130
Clifton, Martin A.:
    Letter for the Record........................................   131
Coalition for Nevada's Wildlife:
    Letter for the Record........................................    35
Cortez Masto, Hon. Catherine:
    Opening Statement............................................    21
Daines, Hon. Steve:
    Photo of B-47 Ridge (Crash Site) on Emigrant Peak (Montana)..    75
    Photos of Servicemen and Debris from the Crash Site..........    76
Driscoll, Hon. Jim:
    Letter for the Record........................................    20
Eastern Sandoval Citizens Association, Inc.:
    Letter for the Record........................................   136
Eastern Sandoval Citizens Association and the Las Placitas 
  Association of New Mexico:
    Letter for the Record........................................   137
Economic Collaborative of Northern Arizona:
    Letter for the Record........................................    18
Elko Band Council, Te-Moak Tribe of Western Shoshone Indians of 
  Nevada:
    Statement for the Record.....................................    37
Evans, Hon. Coral J.:
    Letter for the Record........................................    14
Faulconer Fair, Myrna:
    Letter for the Record........................................    78
FreedomWorks:
    Statement for the Record.....................................   174
Friends of the Kalmiopsis:
    Letter for the Record........................................   175
Friends of Nevada Wilderness:
    Statement for the Record.....................................    29
Gale, Robert N. ``Bob'':
    Letter for the Record........................................   182
Gilbert, Wm. Dean:
    Letter for the Record........................................    79
Gonzalez-Colon, Hon. Jennifer:
    Letter for the Record........................................   183
Goodrich, Barbara:
    Letter for the Record........................................    15
Heinrich, Hon. Martin:
    Opening Statement............................................    12
Hicks, John:
    Letter for the Record........................................   185
Hixenbaugh, Frederick:
    Letter for the Record........................................    80
Hixenbaugh Beasley, Nancy:
    Letter for the Record........................................    81
Joiner, Keith:
    Letter for the Record........................................    82
Kalmiopsis Audubon Society:
    Letter for the Record........................................   187
KS Wild, et al.:
    Letter for the Record........................................   237
Lee, Hon. Mike:
    Opening Statement............................................     1
Leif, Hon. Gary:
    Letter for the Record........................................   242
Lyford, Gordon:
    Letter for the Record........................................   243
Manchin III, Hon. Joe:
    Opening Statement............................................    48
Martin, Rhon and Margene:
    Letter for the Record........................................   244
McSally, Hon. Martha:
    Opening Statement............................................    13
National Ocean Industries Association:
    Letter for the Record........................................   245
National Trust for Historic Preservation:
    Statement for the Record.....................................   246
National Wildlife Federation and New Mexico Wildlife Federation:
    Letter for the Record........................................   248
Nedd, Michael:
    Opening Statement............................................    56
    Written Testimony............................................    60
    Responses to Questions for the Record........................    95
Nevada Conservation League:
    Letter for the Record........................................    25
Northern Arizona Leadership Alliance:
    Letter for the Record........................................    19
Ordogne, Paul and Carol:
    Letter for the Record........................................   250
Oregon Outdoors:
    Letter for the Record........................................   251
Oregon Wild:
    Letter for the Record........................................   253
Outdoor Alliance:
    Letter for the Record........................................   255
Palmer, Tim:
    Letter for the Record........................................   259
Park County (Montana) Commission:
    Letter for the Record........................................    83
Park County (Montana) Environmental Council:
    Letter for the Record........................................    84
Parker, Col. Brandon D., USAF:
    Letter for the Record........................................    85
Patagonia:
    Letter for the Record........................................    28
Perkins, Joanne and Tim:
    Statement for the Record.....................................   261
Perkins, Tim:
    Statement for the Record.....................................   262
Progressive Leadership Alliance of Nevada:
    Letter for the Record........................................    39
Puckett, James E.:
    Letter for the Record........................................   263
Pueblo of Santa Ana (New Mexico):
    Statement for the Record.....................................   266
Redfield, Hon. Alan:
    Letter for the Record........................................    86
Rice, Hon. John Patrick:
    Statement for the Record.....................................    40
Roberts, Hon. Colleen, Hon. Court Boice and Hon. Lily Morgan:
    Letter for the Record........................................   268
Sawyers Wilcoxen, Sharon:
    Letter for the Record........................................    87
Sierra Club:
    Letter for the Record........................................   270
Sierra Club--Toiyabe Chapter:
    Letter for the Record........................................    27
South Fork Indian Reservation, South Fork Band Council:
    Resolution No. 19-SF-08 for the Record.......................    41
Sportsmen for the Rubies:
    Letter for the Record........................................    30
STEM City (Arizona):
    Letter for the Record........................................    17
Stevens, Fermina:
    Letter for the Record........................................    43
Sutton, Dr. Greg K.:
    Letter for the Record........................................    88
Te-Moak Tribe of Western Shoshone:
    Resolution No. 19-TM-01 for the Record.......................    22
Udall, Hon. Tom:
    Opening Statement............................................     3
    Written Testimony............................................     5
U.S. Department of the Interior:
    Statement for the Record regarding S. 499....................    58
Western Watersheds Project:
    Letter for the Record........................................    44
(The) Wilderness Society:
    Letter for the Record dated May 10, 2019, regarding S. 258...    26
    Letter for the Record dated May 13, 2019, regarding various 
      bills......................................................   272
    Letter for the Record dated May 14, 2019, regarding S. 1317..   277
Wilhelmsen, John:
    Letter for the Record........................................   279
Wyden, Hon. Ron:
    Opening Statement............................................     8
    Written Statement............................................    10

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/5/subcommittee-on-public-lands-forests-and-mining-
legislative-hearing

 
                          PENDING LEGISLATION

                              ----------                              


                         TUESDAY, MAY 14, 2019

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:46 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Mike Lee, 
presiding.

              OPENING STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. The Subcommittee will come to order. The 
Subcommittee on Public Lands, Forests, and Mining is now 
holding its first legislative hearing for the 116th Congress, 
and I would like to welcome all of you.
    As my colleagues know, the Subcommittee has jurisdiction 
over public lands administered by the Bureau of Land Management 
and the U.S. Forest Service. This includes oversight of 
activities on such lands including recreation, hard rock 
mining, mineral leasing, the establishment of wilderness areas 
and mineral policy in the Outer Continental Shelf.
    Today's hearing agenda includes eight bills that together 
cover each of these issues in several Western states and 
offshore of all five U.S. territories. It is an example of the 
Subcommittee's broad oversight over large swaths of federal 
land and is a reminder of the fact that public lands policy has 
a direct impact on the daily lives of many, many millions of 
Americans.
    Indeed, the Federal Government controls almost one-third of 
the entire land mass of the United States making it, far and 
away, the largest landowner in the nation and over 90 percent 
of its holdings are located in 11 states in the West. In 
contrast, the Federal Government owns 4 percent of the land 
East of the Mississippi.
    My home State of Utah is ranked second among all states for 
the percentage of land owned and managed by the Federal 
Government. In fact, two-thirds of Utah is the property of 
Uncle Sam and the estate, the federal estate, within the 
country is growing. Over the past five years, Congress has 
appropriated more than $1 billion for land acquisition, this, 
in addition to the land already held by the Federal Government.
    The most recent data produced by the Congressional Research 
Service (CRS) estimates that the Federal Government owns more 
than 640 million acres with a maintenance backlog of $19 
billion, with a B--though the CRS notes that these estimates 
are incomplete. So that is one of the issues you run into when 
you have a single entity owning this much land, you have to 
rely on estimates about how large the estate is and even those 
estimates are known and conceded to be incomplete.
    Today I would like to highlight a bill sponsored by my 
colleague from Indiana, Senator Braun, S. 434, that responds to 
this very issue. S. 434 directs the U.S. Department of the 
Interior to produce and submit a report to Congress on its land 
holdings and on the cost of maintaining such lands. I believe 
S. 434 will help ensure that Congress and the American 
taxpayers will have a better understanding of the land that is 
owned by the Federal Government, and I look forward to 
discussing that bill today.
    We will also hear testimony from the Administration on 
three bills, that combined, would withdraw more than 700,000 
acres of federal land from mineral development in Nevada and 
New Mexico.
    Another bill, S. 1262, the Oregon Recreation Enhancement 
Act, would establish approximately 59,000 acres of new 
wilderness and designate another 130,000 acres as special 
management areas for recreation on O&C lands, lands originally 
set aside for timber production through federal grants.
    Only two bills on today's agenda would remove federal 
restrictions on public land for the benefit of local 
communities. The first, S. 242, would remove outdated Forest 
Service timber interest on 640 acres of land in Arizona to 
support public enjoyment of a historical observatory. The other 
bill, S. 490, sponsored by my colleague, Senator Daines, 
authorizes local residents to install a memorial plaque on a 
mountain ridge in Montana to honor the death of four servicemen 
who perished there in an Air Force bomber crash.
    I would also like to highlight this bill which represents 
life in a public land state. A community needs to go cap in 
hand to Congress to ask Congress for permission to simply have 
a plaque to honor servicemen who died there while serving their 
country. This is the burden of having the Federal Government 
own a large portion of your state. This is the burden specific 
to a state where most of the land is owned by the Federal 
Government. This should not be the case. This is silly. And it 
ought not require an Act of Congress to do something like that, 
but we will do it if that is what it takes. It is an insult to 
the American people, particularly those servicemen and women 
and particularly to the residents of states like that that we 
have to go through this exercise.
    Both S. 242 and S. 490 highlight that public lands must be 
made more accessible for local uses, recognizing that there are 
a whole lot of people close to where those lands are that are 
more affected by how those lands are used, how they are 
managed, than the people here in Washington, DC, who dictate 
how they will be used.
    With that, I would be turning to Senator Wyden for his 
opening remarks. It looks like he is not here yet. We are also 
going to give a chance to members of the Subcommittee to make 
introductory remarks. While we await Senator Wyden, we are 
going to hear from Senator Udall and later from Senator Braun.
    Senator Udall has another committee assignment so with 
consent of the Committee members, I would like to go to Senator 
Udall first. And I am not just doing that because he is my 
cousin, but also because I really like him.
    [Laughter.]
    Go ahead, Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Lee and Ranking Member 
Wyden and all of the members, thank you for your courtesies.
    Thank you for the opportunity to speak in favor of the 
Chaco Cultural Heritage Area Protection Act and the Buffalo 
Tract Protection Act, both introduced by me and Senator 
Heinrich.
    The Chaco Protection Act would withdraw federal lands from 
future minerals development within an approximately ten-mile 
radius of the boundaries of Chaco Cultural National Historic 
Park in New Mexico. The entire New Mexico delegation supports 
this legislation, with a companion bill introduced in the House 
of Representatives by our three House members, Representatives 
Lujan, Haaland and Torres Small.
    Let me first briefly explain why the Chaco Canyon area is 
so special. Chaco is known around the world as the heart of a 
culture that inhabited the Four Corners area for hundreds of 
years. The Chacoan people reached astounding architectural, 
cultural and economic heights for 300 years from 850 to 1150 
AD. They were master builders and engineers constructing over 
150 great houses with hundreds of rooms and kivas throughout 
the region. A network of roads spread in all directions and 
trade relations extended into Southern Mexico. More than 3,500 
archaeological sites have yielded over 1.5 million artifacts. 
The remains of sites stand today, and they are magnificent.
    The starkly beautiful land and mountains within the area 
and the cultural sites and artifacts that pepper the landscape 
are sacred to many pueblos and tribes in the Four Corners area. 
These tribal nations' deep roots to the Chacoan people live on 
in their communities across the Southwest, and we have several 
Pueblo governors here representing all of the pueblos in New 
Mexico.
    Chaco has been a UNESCO world heritage site since 1987, one 
of only 23 such sites in our nation. This culture represents 
one of our nation's greatest pre-Columbian civilizations.
    But the park covers only a fraction of the archaeological 
and culturally significant sites and artifacts. Protection of 
the area surrounding the national park is imperative. This area 
is at real and continued risk.
    Over the last three years, the Bureau of Land Management 
(BLM) has proposed new oil and gas leasing in the Greater Chaco 
Canyon landscape area. Each time, BLM has withdrawn the 
proposals as a result of overwhelming protests from the public 
and pressure from elected officials like Senator Heinrich and 
me. This sacred area, home to critically important 
archaeological sites and objects, should not be under constant 
threat. Indeed, the Tenth Circuit recently concluded that the 
Department had not adequately evaluated impacts from leases 
both within and outside this ten-mile buffer. The time to act 
is now.
    Our bill grew from a ground swell of community-based work 
over a number of years. Residents and tribal and surrounding 
communities sought greater input into BLM decisions on 
development in and around the area, and pueblos and tribes 
wanted the meaningful government-to-government consultation the 
Federal Government is obligated to conduct.
    We have worked very closely with the all-Pueblo Council of 
Governors, the Navajo Nation, community members and others to 
craft a bill that balances cultural protection and existing 
rights, including those of tribal allottees. This legislation 
would withdraw only minerals owned by the Federal Government 
within approximately 333,000 acres.
    I also want to be clear, this bill would not affect 
existing federal leases or minerals owned by private 
individuals, the State of New Mexico, or tribes.
    Importantly, the New Mexico State Land Office Commissioner 
has issued an Executive Order placing a moratorium on new 
mineral development on approximately 72,000 acres of state 
trust lands within an approximately ten-mile radius of the 
National Park. The State of New Mexico has aligned with our 
legislation. Other private parties and tribes will be able to 
make those decisions for themselves. This bill is important to 
my state, our pueblos and tribes, our nation and to future 
generations.
    I look forward to the Subcommittee moving this bill out of 
the Committee as quickly as possible so we protect this special 
area for generations to come.
    I also fully support the Buffalo Tract Protection Act, S. 
1526, and hope it can also be reported favorably, as quickly as 
possible. This legislation would withdraw four parcels of BLM 
lands, including the Buffalo Tract and the Crest of Montezuma, 
from mineral development.
    This bill would also maintain BLM's authority over the 
surface rights to the parcels. And if the surface rights are 
transferred and the mineral rights will remain under federal 
management and will remain withdrawn.
    Like our Chaco legislation, this bill is supported by an 
array of community members and tribes including the Town of 
Bernalillo, Santa Ana Pueblo, San Felipe Pueblo, Las Placitas 
Association, Ranchos de Placitas Property Owners Association 
and La Mesa Homeowners Association.
    Thank you very much for considering my views. Sorry, 
Ranking Member Wyden, for jumping in front of you here, but I 
am going to end.
    I thank all the Committee members for their courtesies and 
excuse myself to meet with my Chairman, Senator Murkowski, who 
is probably mad at me at this point.
    [Senator Udall's written statement follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. I am sure she will be very understanding, and 
you did a great job serving as the warm-up band for Senator 
Wyden.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Chairman Lee and Senator Manchin, 
in particular, and all of my colleagues. This is a pretty 
hectic day by Senate standards.
    I appreciate the chance to discuss legislation that Senator 
Merkley and I have authored to protect and enhance three of my 
state's most iconic recreation destinations.
    S. 1262, the Oregon Recreation Enhancement Act would 
establish two new recreation areas on the Rogue and Molalla 
Rivers. These rivers are home to some of the world's most 
extraordinary salmon and steelhead runs which are the backbone 
of Oregon's local recreation economies.
    This legislation would expand the current Wild Rogue 
Wilderness Area in the rugged canyons and steep cliffs off the 
Rogue River. This is truly one of the wildest and most remote 
landscapes in Southern Oregon with efforts to protect and 
conserve these lands persisting for over a half century when 
Congress passed the Wild and Scenic Rivers Act and designated 
44.5 miles of the Rogue.
    Lastly, the bill permanently protects several sources of 
clean drinking water from hazardous mining. The special 
headwaters for the Smith and Illinois Rivers provide thousands 
of Oregon families with clean drinking water and are critical 
salmon habitats.
    Based on the support of the local community, the Forest 
Service and Bureau of Land Management issued a temporary 20-
year ban on new mining claims in the region in 2017. The 
temporary ban gives Congress more time to pursue a permanent 
solution. That is what this bill does. And the legislation 
builds on what I call the Oregon way, our traditional 
conservation ethic that has been fundamental to the livability 
of my home state. The areas the legislation seeks to protect 
are truly public treasures and should remain places to recreate 
for generations to come.
    That is why, based on local concerns, this bill ensures 
that public land managers can do important preemptive forest 
health and wildfire resiliency work within the recreation areas 
and wilderness expansion. Making sure these landscapes are 
around for future generations means hazardous fuels and 
thinning work can and must continue.
    I have heard all these stories about how you can't protect 
special places in the West because all you are doing is getting 
short shrift to the effort to deal with fire. Nothing could be 
further from the truth. This Committee led the effort on 
trailblazing approaches like ending fire borrowing and the list 
goes on and on. But what this legislation does is it protects 
special places and also makes it clear that we are going to be 
all in in the fight against fire; thinning work and hazardous 
fuels work can continue.
    Mr. Chairman, thank you very much for the chance to be able 
to jump in front of some of my colleagues. I want to thank you 
and Senator Manchin and my colleagues for their courtesy. 
Something tells me Senator Heinrich and I are going to end up 
in the same place here shortly. I appreciate my colleagues and 
ask that my full statement be part of the record.
    Senator Lee. Without objection.
    [Senator Wyden's full statement follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. We will now recognize the Ranking Member of 
the full Committee, Senator Manchin.
    Senator Manchin. I yield my time to Senator Heinrich, 
because I know he has to go to another meeting.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you very much. We have a markup in 
the Intel Committee meeting, so that is why some of us will be 
coming and going.
    But I want to thank the Subcommittee for hearing two bills 
today on issues of incredible importance to New Mexico, and I 
want to thank Senator Udall for his leadership and partnership 
on these two bills.
    First, the Chaco Culture Heritage Area Protection Act would 
protect the area immediately surrounding the Chaco Culture 
National Historic Park from federal development of oil and 
natural gas. This landscape is sacred to tribes across the 
Southwest and tribal leaders are united in their opposition to 
new development within ten miles of the park. And New Mexico's 
governor, state land commissioner and the entire Congressional 
delegation agree that this is the wrong place for oil and gas 
production.
    As development in the San Juan Basin moves further and 
further south, the air pollution, dust and light pollution at 
the sacred sites inside the park will only increase. And 
fragile historical and cultural sites outside of the park 
boundaries are directly threatened by new wells drilled without 
the benefit of a cultural resource survey based on the 
traditional knowledge of Pueblo and Navajo experts.
    We cannot rush into development in a place this culturally 
important and this complex. Preventing development in the 
immediate surroundings of the park will protect irreplaceable 
cultural sites and ensure that the Greater Chaco landscape 
remains intact.
    Mr. Nedd, in your testimony you state that it would be 
premature for the Department of the Interior to take a position 
on permanent protection for this area before you complete the 
planning process. If that is the case, I also hope that the BLM 
takes the same approach to development decisions that would 
have a permanent impact on this landscape. If protection is 
premature at this time, then surely development is also 
premature. I hope that the BLM's plan will give this 
landscape's irreplaceable cultural resources the protection 
that they truly deserve.
    Secondly, the Buffalo Tract Protection Act would withdraw 
four small parcels of BLM land just north of Albuquerque for 
mineral development. This area is already home to three gravel 
mines which have negatively impacted the air and water quality 
of the area. These BLM parcels act as a critical connection for 
wildlife moving between the Sandia Mountains to the south and 
the Sangre de Cristo Mountains to the north. These parcels also 
provide invaluable recreational open space in a growing area.
    The two neighboring pueblos, the county, the nearest town, 
neighborhood associations and local residents all agree that 
these parcels are not the right place for yet another gravel 
mine.
    As demonstrated by the BLM's testimony today, they are 
determined to sell the gravel resource here over the objection 
of local stakeholders. A legislative withdrawal will 
permanently protect the wildlife habitat and recreation 
resources for this community.
    Thank you, again, to the Subcommittee and I yield back the 
remainder of my time, Mr. Chair.
    Senator Lee. Senator McSally.

               STATEMENT OF HON. MARTHA MCSALLY, 
                   U.S. SENATOR FROM ARIZONA

    Senator McSally. Thank you, Chairman Lee, Ranking Member 
Wyden for holding this hearing today on my bill, S. 242, the 
Lowell Observatory Conveyance Act.
    This is a very simple bill that will allow the Observatory 
to make the infrastructure improvements necessary to update its 
research capacity, enhance educational opportunities and 
address important public safety concerns.
    The Lowell Observatory is a world-class research and 
educational observatory founded in 1894 in Flagstaff, Arizona. 
The Observatory has earned global recognition for its 
significant astronomical discoveries and accomplishments, 
including the discovery of Pluto, mapping the moon for the 
Apollo program and the first detection of the expanding nature 
of the universe.
    In 1910, Congress granted Lowell Observatory ownership of 
the plot of land it sits on. The legislation maintained 
reversionary interest on the land that stated the property 
would revert back to the Federal Government if the observatory 
ceased operations as well as the right to cut merchantable 
timber from the plot. That is a new word I have never used 
before in a sentence.
    These conditions made sense in 1910 when the Observatory 
was young. Flagstaff was a frontier timber town, and the land 
it sat on was in the middle of the Coconino National Forest. 
However, conditions today are vastly different. The Lowell 
Observatory is well established with more than a century of 
globally recognized research and discovery under its belt. The 
property is now nearly encircled by the City of Flagstaff.
    My simple, straight-forward and bipartisan bill with 
Senator Sinema will remove the technical encumbrances so that 
the Observatory can make the infrastructure improvements needed 
for another 100 years of scientific discovery, education and 
community enrichment. I am pleased to see strong community 
support for my legislation and a future for the Lowell 
Observatory.
    Mr. Chairman, I would like to ask for unanimous consent to 
enter into the record these six letters of support from 
community leaders and organizations.
    Senator Lee. Without objection.
    Senator McSally. This includes Flagstaff Mayor Coral Evans, 
Flagstaff City Manager Barbara Goodrich, STEM City Flagstaff, 
the Economic Collaborative of Northern Arizona, Northern 
Arizona Leadership Alliance and the Coconino County Sheriff's 
Office.
    [Letters of support for the Lowell Observatory Conveyance 
Act follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator McSally. I want to say thanks again for holding 
this hearing, and I hope we can move this bill forward.
    I yield back.
    Senator Lee. Thank you, Senator McSally.
    Senator Manchin.
    Senator Manchin. I am going to defer my time to my friend, 
Senator Cortez Masto.
    Senator Lee. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    I would like to thank the Chairman and our Ranking Member 
for holding today's Subcommittee hearing and for including my 
bill on today's agenda, Senate bill 258, which is the Ruby 
Mountains Protection Act.
    This bill would prohibit oil and gas development within the 
Ruby Mountains area of the Humboldt-Toiyabe National Forest 
which is located in Elko and White Pine Counties in Nevada. The 
bill was created after the Forest Service received a request by 
an out of state member of the public to develop 54,000 acres of 
land within the Ruby Mountains. The prospect of oil and gas 
leasing in the Rubies sparked a public outcry from people of 
all walks of life and across the political spectrum.
    The Ruby Mountains, often referred to as Nevada's Swiss 
Alps, are treasured by all Nevadans with an overwhelming 
majority advocating for the prohibition of oil and gas 
activities. The bill is supported by the Te-Moak Tribe, 
Backcountry Hunters and Anglers, Nevada Conservation League, 
the Wilderness Society, Sierra Club, Patagonia, Friends of 
Nevada Wilderness, and the Sportsmen for the Rubies which is a 
coalition of several hunting and fishing groups, including 
Trout Unlimited and the Theodore Conservation Partnership.
    Mr. Chairman, I would like to ask a unanimous consent to 
have the letters of support from these organizations entered 
into the record.
    Senator Lee. Without objection.
    [Letters of support for the Ruby Mountains Protection Act 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Cortez Masto. Thank you.
    This area of my home state is truly a hidden gem. The 
landscape and outdoor recreation opportunities bring thousands 
of visitors from across the state, the country and the world.
    After receiving over 10,000 comments in near unanimous 
opposition, the Forest Service, just last week, formally 
rejected the oil and gas development proposal saying that 
leasing is not an appropriate activity in the Rubies noting the 
very low potential for oil and gas in this particular area.
    Our local Forest Service administrator noted that any 
economic benefits from the drilling would be limited compared 
to the money the natural resources contribute to the area 
economy through tourism, recreation and livestock grazing.
    However, it is necessary to enact Senate bill 258 in order 
to permanently protect the Ruby Mountains from any future 
attempt to develop this land for oil and gas purposes. It is 
important that we recognize there are certain areas where 
certain development is not appropriate. It is not wanted and 
should be formally set aside for preservation and 
prioritization of other land management purposes, and that is 
exactly what this bill sets out to do.
    Enacting the Ruby Mountains Protection Act will not only 
preserve these great public spaces and scenic landscapes 
enjoyed by thousands of Nevadans and visitors each year, but it 
also preserves the recreational opportunities, outdoor economy, 
rare wildlife and plant life and the local culture that these 
beloved mountains support. It is imperative that the Ruby 
Mountains be preserved from potential oil and gas development.
    Thank you.
    Senator Lee. Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman, for holding this 
hearing this afternoon.
    Most of the bills on today's agenda address issues of 
importance in the home states of the sponsoring senators, 
although two address broader policies. These bills cover a 
range of issues from protecting important wildlife habitat and 
cultural areas from potential mineral development to providing 
for important outdoor recreation and hunting opportunities, 
providing authority for renewable energy development in U.S. 
territories and addressing the local land management issues. I 
understand the Administration has expressed concerns with the 
bills proposing to withdraw certain public lands in New Mexico, 
Oregon and Nevada from mineral development. But I think the 
sponsors have identified important cultural areas and habitat 
that merit protection. I look forward to working with the 
sponsors and my colleagues to find a way to move these bills 
forward.
    I was interested to see Senators Daines and Tester's bill 
to authorize a plaque to be installed on national forest land 
in Montana to honor four Air Force servicemen who were killed 
in a 1962 plane crash. One of them was Lieutenant Fred 
Hixenbaugh, and he was from West Virginia. I know the family, 
and there are an awful lot of Hixenbaughs in West Virginia. 
Authorizing a plaque to honor these men is a fitting tribute, 
and I look forward to moving this bill through Committee also.
    I wanted to come to the hearing this afternoon to let my 
colleagues know that I want to work with Chairman Murkowski and 
the bill sponsors to address any concerns that are raised 
during the hearing so that we can find a way to ultimately have 
these bills reported by the full Committee with bipartisan 
support.
    Thank you, Mr. Chairman.
    Senator Lee. Thank you, Senator Manchin.
    We will now hear from Senator Mike Braun who is here to 
talk to us about his bill.

                 STATEMENT OF HON. MIKE BRAUN, 
                   U.S. SENATOR FROM INDIANA

    Senator Braun. Thank you, Mr. Chairman, for the opportunity 
to appear before the Subcommittee in support of my Senate bill 
434 on Public Lands.
    This legislation instructs the Department of Interior to 
produce a one-time report to Congress pertaining to federal 
ownership of lands and, most importantly, the resources the 
Federal Government expends on maintenance.
    As a lifelong conservationist, I believe that we must be 
good stewards to our public lands. They provide immense 
opportunity for recreation, public education and conservation. 
However, the government does a poor job at maintaining this 
natural resource. Current estimates suggest that our nation has 
a backlog of maintenance on our public lands of more than $19 
billion, $19 billion. The statistics currently included in 
government reports and budget requests are just inadequate.
    For example, the '18 budget request for the Department of 
the Interior used a maintenance backlog number from 2016. That 
report estimated that the backlog across the Department was 
only $15 billion, a number that likely greatly underestimates 
the true need.
    This is why Congress needs to instruct the Department of 
the Interior to prepare a full report on this issue. This is 
why Congress should swiftly pass Senate bill 434.
    Anything of proportion in this, anywhere across the 
spectrum of government or business with holdings this large and 
being uncertain about what it costs for the upkeep or the 
maintenance would be unheard of. And my proposals, Mr. 
Chairman, build off your strong record on this issue. In my 
opinion, Congress has an obligation to conduct comprehensive 
oversight of our federal lands, and I believe that my bill 
provides Congress the necessary information needed to fulfill 
this obligation.
    Thank you.
    [The written testimony of Senator Braun follows:]
    [GRAPHIC] [TIFF OMITTED] T7306.040
    
    Senator Lee. Thank you, Senator Braun.
    It is now time for us to hear from our two witnesses. We 
have two witnesses appearing before the Subcommittee today. The 
first is Mr. Frank Beum, the Acting Associate Deputy Chief of 
the U.S. Forest Service, and the second is Mr. Mike Nedd, the 
Deputy Director for Operations at the U.S. Bureau of Land 
Management.
    At the end of the witness testimonies, members will be able 
to ask questions so that the millions of viewers watching on TV 
will be able to watch that and we will be able to enter that 
for our record. Your full written testimony will be made part 
of the official Subcommittee record. Please keep your 
statements limited to five minutes so that we will have time 
for questions. I look forward to hearing your testimony.
    Mr. Beum, we will go with you first.

  STATEMENT OF FRANK R. BEUM, ACTING ASSOCIATE DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, USDA FOREST SERVICE

    Mr. Beum. Thank you.
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to share the Administration's position on several 
bills that would affect the Forest Service.
    To start with, S. 242, the Lowell Observatory Conveyance 
Act, would direct us to convey land owned and occupied by the 
Lowell Observatory near Flagstaff, Arizona. Because of the 
timber reservation and reversionary clause established in the 
1910 Act, there isn't an appropriate authority that would allow 
the agency to process the Observatory's request to remove the 
timber reservation and convey the United States' reversionary 
interest. If this bill were enacted, it would provide the 
authority needed to complete the conveyance to the Observatory. 
The Forest Service has no concerns with and does not oppose S. 
242.
    S. 258 would prohibit the Department of the Interior from 
issuing oil or gas leases on National Forest System land in the 
Ruby Mountains Ranger District on the Humboldt-Toiyabe National 
Forest in Nevada. In March the agency released a Draft Record 
of Decision, including that no leasing should occur on a 
portion of the Ruby Mountains Ranger District due to the low 
potential for oil and gas resources because of unfavorable 
geologic conditions. On May 7th, as has been mentioned, the 
``no leasing'' decision was signed by the Forest Supervisor. 
The Department notes that administrative tools such as the 
environmental analysis completed on this proposal are available 
to inform these types of decisions. With such agency and 
community interaction leading to successful outcomes using 
existing authorities, the Department believes this bill is 
unnecessary.
    S. 490 would designate a currently unnamed mountain ridge 
located on the Gallatin National Forest as the ``B-47 Ridge.'' 
The bill would also authorize a plaque memorializing the 1962 
crash of a B-47 to be placed on this ridge. The plaque would 
honor the four-man crew that perished in the crash. The 
Department supports honoring the brave individuals who served 
our country and died tragically in this ridgetop crash.
    S. 1262, the Oregon Recreation Enhancement Act of 2019, 
would expand an existing wilderness boundary, establish two 
national recreation areas and permanently withdraw two areas of 
federal land from the mining laws of the United States to 
protect them from new mining claims, other mineral leasing and 
geothermal leasing.
    In Section 3, the national recreation areas would consist 
only of BLM lands so we defer to the Department of the 
Interior. We would like to better understand what lands are 
covered under Section 4, the Expansion of the Wild Rogue 
Wilderness Area. Given the scale of the map referenced in the 
bill, it is unclear if any acreage of National Forest System 
land is included in the proposed expansion. We would like to 
work with the Committee and the BLM to develop a detailed inset 
map in the legislation to ensure the boundaries between the BLM 
and the Forest Service parcels are clear and unambiguous. And 
then finally Section 5 proposes a mineral withdrawal for two 
areas known as Rough and Ready and Baldface Creeks, and Hunter 
Creek and Pistol River Watershed--Headwaters, that total nearly 
96,000 acres of National Forest System lands.
    In 2016, the Assistant Secretary of the Interior for Land 
and Minerals Management administratively withdrew these lands 
for a 20-year term so Congress might consider legislation to 
permanently withdraw these areas.
    Now, the Forest Service is completing a Surface Use 
Determination as part of the process to determine valid 
existing rights within the withdrawal area. We expect to 
complete the determination by this August.
    In conclusion, delivering dependable energy, economic 
benefits and providing jobs for rural communities while 
restoring ecosystems is a top priority of our agency. We would 
be interested in working with the sponsors and the Subcommittee 
to address the specific concerns noted in our testimony to 
accomplish our shared multiple use goals for National Forest 
System lands.
    This concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Beum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you very much.
    Mr. Nedd.

  STATEMENT OF MICHAEL NEDD, DEPUTY DIRECTOR FOR OPERATIONS, 
   BUREAU OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Nedd. Good afternoon, Mr. Chairman, certainly Mr. 
Ranking Member in his absence and Senator Cortez Masto, members 
of the Subcommittee.
    Thank you for the opportunity to present testimony today. I 
am Michael Nedd, the Deputy Director for Operations of the 
Bureau of Land Management.
    I will briefly summarize the written statements concerning 
the four BLM related bills on today's agenda.
    S. 434 requires the Secretary of the Interior to prepare 
and submit to Congress a report that describes all federal land 
holdings under the jurisdiction of the Department and the total 
cost of maintaining these federal land holdings for each of 
Fiscal Years 2017 through 2019. The bill further requires that 
this report be submitted within 120 days of the delivery of the 
FY 2020 President's budget request to Congress. While the 
Department supports the bill's goals of ensuring accurate and 
timely data of federal land holdings, we would like to work 
with the sponsor and the Subcommittee on a few modifications 
that we believe would aid in implementation.
    S. 526, the Buffalo Tract Protection Act, would subject to 
valid and existing right to withdraw approximately 4,200 acres 
of federal minerals estate near the growing population area of 
Placitas, New Mexico, from all form of mineral development. The 
Department notes that the population of the Albuquerque metro 
area, which includes Placitas, is expected to nearly double 
within the next 25 to 30 years and federal minerals will be an 
important source of minerals--of materials for future 
infrastructure needs. The Department supports approaches that 
could protect high-value resources while still accommodating 
uses and activities permitting on BLM managed land. We would 
like to work with the sponsor on modification to this bill in a 
way that would ensure a full range of uses for this area.
    S. 1079, the Chaco Canyon Heritage Protection Act, would 
withdraw approximately 201,000 federal surface acres and 
approximately 334,000 acres of federal subsurface mineral 
estates surrounding the Chaco Cultural National Historical Park 
in Northwestern New Mexico from public land mining, minerals 
and geothermal leasing laws. In FY 2018 the total revenue 
generated from responsible mineral development on federal lands 
in New Mexico alone was over $1.3 billion. The Secretary also 
recognizes there are some places that may benefit from 
protection. Striking the appropriate balance for public land 
use is an important mission that the Department takes 
seriously. We would like to work with the sponsors to identify 
the best approach to protecting this special area as the BLM 
continues to evaluate and update its land management plan.
    S. 1262, the Oregon Recreation Enhancement Act, would 
establish two new recreation areas and expand the existing 
wilderness, Rogue Wilderness, on intermixed O&C land and public 
domain forest managed by the BLM in Western Oregon. As required 
under existing law, the BLM manages its own land to provide a 
permanent source of timber, protected watersheds, contribute to 
economic stability for local community and provide recreational 
facilities. S. 1262 would also withdraw approximately 101,000 
acres of federal land managed by the Forest Service and the BLM 
in Southwestern Oregon. The Department would like to work 
forward with the sponsor on modification to the bill to 
increase public access, facilitate outdoor recreational 
opportunities and reduce potential impacts to management and 
harvest of timber and other forest products.
    Finally, the Department will submit a statement for the 
record on S. 499, the Offshore Wind and Territories Act. The 
Bureau of Ocean Energy Management would be happy to respond for 
the record to any question you may have on S. 499.
    [The written statement referred to follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Nedd. Thank you again for the opportunity to testify, 
and I am happy to answer any questions you may have on the 
other four bills.
    [The prepared statements of Mr. Nedd follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you very much to both of you. We will 
now begin alternating five-minute rounds of questions.
    Mr. Nedd, I would like to start with you. You heard Senator 
Braun speak a moment ago about his bill, S. 434. You made 
reference to it. Senator Braun's proposal is something that I 
would support, because it will help the American taxpayer 
understand the cost of maintaining this massive federal estate. 
If the bill advances to markup, I would like to see the 
legislation amended so as to include Forest Service holdings as 
well as BLM holdings.
    Now Senator Braun mentioned the Congressional Research 
Service tells us that the total amount of federal landownership 
in your respective agencies is not definitively known. I would 
like to ask each of you whether you agree with that statement 
and, if so, why is that the case? We will start with you, Mr. 
Nedd.
    Mr. Nedd. Well, Senator, the BLM, or the Department of the 
Interior, I should say, certainly with the Bureau of 
Reclamation, the National Park Service, the Fish and Wildlife 
and BLM, we do have records that suggest at least closely the 
land holdings we have. So within the BLM we have about 245 
million acres of land, and every year in our public land 
statistic we do publish those lands, including any lands that 
may have moved out of federal ownership or into ownership. 
Similarly, the Park Service and the Fish and Wildlife and BOR 
keeps records.
    Senator Lee. So would you say that the amount of land under 
the management of BLM is, in fact, definitively known?
    Mr. Nedd. I would say it is known, yes, Senator.
    Senator Lee. Okay.
    How about you, Mr. Beum?
    Mr. Beum. Yes, we manage 193 million acres, roughly, of 
National Forest System lands. And again, we publish on an 
annual basis our land status. I believe we know what our land 
status is, yes, sir.
    Senator Lee. Okay.
    So if I am understanding you both correctly, you would be 
saying that the uncertainty would not be as a result of Forest 
Service or BLM, it would be through some other federal agency, 
that that is where the uncertainty lies?
    In other words, what you have both just told me is that the 
total number of land under your management in your respective 
agency is definitively known whereas CRS said the total amount 
of the federal estate, the total number of acres in the federal 
estate, is not definitively known.
    Mr. Nedd. Well, Senator, in my testimony or in my written 
statement, certainly the Department listed in here where they 
knew what the lands for the Bureau of Reclamation at 7.8 
million acres. The lands that are managed within the Fish and 
Wildlife at 150 million acres--I'm sorry, the Fish and Wildlife 
of 80 million acres and the Bureau of Reclamation at 7.8 and 
the BLM at 245. So I think in my statement there's those 
figures and I would say the Department of the Interior land 
management agency is aware of the lands they have.
    Senator Lee. Okay.
    Mr. Nedd, I want to move on to S. 1079, Senator Udall's 
bill. It is a bill that its message is protecting Native 
American cultural resources from horizontal drilling. But 
within the proposed 1,400 square mile buffer zone it would set 
allotments of Navajo Tribal members. For some allotees, the 
mineral development may be a significant source of income in an 
otherwise economically disadvantaged region. For many, it 
certainly is a source of employment.
    So first I would like to ask about the purported necessity 
for this legislation. As part of the regular administrative 
process for proposed oil and gas leases, isn't the BLM already 
required by law to consult with tribes and to conduct cultural 
resource clearances?
    Mr. Nedd. Yes, Senator.
    Senator Lee. And if that is the case, is there really any 
threat to those resources currently or anything inadequate 
about that process that is already in place?
    Mr. Nedd. Senator, right now we're going through a land use 
or a land amendment process. And so, we're consulting with the 
tribe and at the end of that process it will reveal if there is 
any potential impact on how to mitigate it.
    Senator Lee. Okay.
    Do you know, does the BLM have any idea how many Navajo 
allotments might be inside of this proposed 1,400 square mile 
buffer zone?
    Mr. Nedd. Senator, I don't have that information here with 
me, but I would love to take that back as a question for the 
record.
    Senator Lee. Okay.
    Do you know how tribal allotees and horizontal drilling on 
allotted lands might be affected by the protection zones and by 
this legislation that creates them?
    Mr. Nedd. Senator, it's my understanding that tribal and 
allotees would not be affected by this withdrawal. However, 
there will be challenges given the intermixing of public, 
tribal and private land and, of course, the geography of the 
lands.
    Senator Lee. Do you have any idea whether any economic 
analysis has been done to quantify or in any way estimate the 
impact the protection zone might have on local jobs, including 
the impact on the tribal economy?
    Mr. Nedd. A social economic analysis would have been done 
for the plan, but I don't have that information with me here, 
Senator.
    Senator Lee. Okay, but you believe one has been done?
    Mr. Nedd. To some degree, I would believe, yes, Senator.
    Senator Lee. Okay.
    Alright, I see my time is expired.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Thank you, Mr. Chairman.
    Mr. Beum, I want to talk to you a little bit about Senate 
bill 258, which is the Ruby Mountains Protection Act. So help 
me understand how the Forest Service says one day that oil and 
gas leasing is not an appropriate activity there, but then the 
next day you oppose a bill that says oil and gas leasing in 
that same area is not appropriate activity?
    Mr. Beum. Yes, ma'am.
    So we conducted an analysis on, as you mentioned, 54,000 
acres of the Ranger District. That proposed action was brought 
to us by the BLM from an expression of interest from a member 
of the public. So that's how we did our analysis based on that 
specific proposal.
    So I guess what we're saying in our testimony is that we 
would use a similar proposal or similar process, environmental 
analysis or assessment, to analyze a substantive proposal, so--
--
    Senator Cortez Masto. Right. But you have already 
determined that oil and gas leasing is not appropriate there. 
In fact, you issued a press release saying the analysis 
revealed unfavorable geologic conditions in the area, meaning 
there is little to no potential of oil and gas resources in the 
area. So why not make it permanent? Why go through this process 
again? Because literally this Act in this legislation makes it 
permanent, correct?
    Mr. Beum. Correct.
    Senator Cortez Masto. And what you are doing does not 
necessarily make it permanent. You are going to have to go 
through the process all over again if a request is made to look 
into oil and gas, correct?
    Mr. Beum. Yes, that's correct.
    Senator Cortez Masto. And you are going to have to spend 
taxpayer funds to do that, correct?
    Mr. Beum. Correct.
    Senator Cortez Masto. Right.
    So there is a difference between--this is not an 
unnecessary bill. This is necessary because it makes it 
permanent, what you have actually, already determined, correct?
    Mr. Beum. Yes, ma'am.
    Senator Cortez Masto. Okay.
    So I guess that is why I am confused. Instead of coming in 
here either supporting it or remaining neutral, why are you 
coming in and saying it is unnecessary because that just does 
not make sense to me. I guess I am more concerned about this 
Administration, particularly, playing politics with this 
instead of doing the right thing.
    Again, this is supported by Nevadans. It is supported by 
outdoorsmen and recreational folks. It is a benefit to the 
economy. It is something that even your Forest Service 
administrator on the ground has said. That is why you ruled oil 
and gas leasing is not appropriate.
    Let me ask you this. The legislation that is before you 
does not prohibit mineral development, correct?
    Mr. Beum. Your legislation?
    Senator Cortez Masto. Correct.
    Mr. Beum. It withdraws the land from minerals.
    Senator Cortez Masto. For oil and gas leasing.
    Mr. Beum. For oil and gas, yes, ma'am.
    Senator Cortez Masto. But it does not prohibit mineral 
development if somebody decides they want to look into that, 
correct?
    Mr. Beum. Yes.
    Senator Cortez Masto. Right.
    So the idea that I am hearing that somehow this also 
prohibits mineral development, that is an incorrect statement 
that I have heard today, correct? It is incorrect.
    Mr. Beum. I believe that's true.
    Senator Cortez Masto. Too many corrects for you.
    Mr. Beum. Yup.
    Senator Cortez Masto. Yes.
    So let me just verify, just say this, the Act only talks 
about oil and gas leasing and it is the decision that you have 
already determined. It makes it permanent. What you are doing 
does not make it permanent. In fact, you would waste more 
taxpayer dollars if you are asked to review it and have to look 
at the same area again, correct?
    Mr. Beum. Yeah, the Department believes we have 
administrative tools to analyze a future proposal. That's where 
the Department's----
    Senator Cortez Masto. Which is unnecessary in this case. 
You have made a determination. This makes it permanent. And 
that is all I am asking for.
    Thank you.
    Mr. Beum. I understand.
    Senator Lee. Senator Daines.
    Senator Daines. Thank you, Chairman Lee.
    Mr. Chairman, today I get the privilege to discuss an 
important bill to my state, Senate bill 490, the B-47 Ridge 
Designation Act.
    This bill designates an unnamed ridge, B-47 Ridge, in honor 
of four servicemen who lost their life in a plane crash in Park 
County, Montana. That is not too far away where I grew up.
    This is the same area, incidentally, that we protect 
through the Yellowstone Gateway Protection Act which was signed 
into law earlier this year by President Trump. This bill also 
allows the dedication of a memorial plaque at the site of the 
crash, so this accident will never be forgotten.
    On July 23rd, 1962, a B-47E Strategic Air Command Bomber, 
originating from Dyess Air Force Base in Texas, was performing 
a routine training mission while over the skies at Paradise 
Valley in Montana, just south of Livingston. The normal routine 
flight plan had the plane at 23,000 feet over Dillon, Montana, 
when the last communication came in from the crew. Soon after, 
the B-47 bomber crashed into the southwest slope of Emigrant 
Peak, killing all on board. Captain Bill Faulconer, Lieutenant 
Lloyd Sawyers, Lieutenant David Sutton and Lieutenant Fred 
Hixenbaugh all tragically lost their lives serving our country 
that day in 1962. And these men came from all across our great 
nation, from West Virginia, from Kansas, from Texas, from 
Oklahoma. In fact, if you were to hike up to that site today 
you will still see debris scattered on the grounds and the 
still-scorched trees, but there is no designation plaque or 
explanation for the visitor to know the story of these brave 
men.
    Only Congress and the U.S. Geological Survey have the power 
to name unnamed geological features. However, USGS cannot 
authorize a memorial plaque to honor the fallen. Congress can, 
and as we are doing here today. That is why I introduced the 
bipartisan B-47 Ridge Designation Act.
    So you can see looking up here the pictures of the 
servicemen that lost their lives and some of the debris that is 
in the crash site.
    [The photographs referred to follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. This tells the story of these brave men and 
ensures the sacrifice is never forgotten so their families, 
their friends, visitors to this ridge will see what happened on 
that tragic day. After over half a century, I believe it is 
time that these men are memorialized for their service.
    This bill is supported by Montana's entire Congressional 
delegation, Senator Tester and myself as well as Congressman 
Gianforte, who is going to champion that bill on the House 
side. It is also supported by the families of the fallen men 
and, importantly, the local elected officials and the community 
as a whole.
    Mr. Chairman, I ask unanimous consent to add their support 
letters to the record.
    Senator Lee. Without objection.
    [Letters of support for Senate bill 490 follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Mr. Beum, question.
    My legislation allows the dedication of a memorial plaque 
at the site without using taxpayer dollars. It is my 
understanding the Forest Service was unable to approve a permit 
for a memorial as it was against policy.
    With my legislation will the families now be able to place 
a memorial plaque to honor these men?
    Mr. Beum. Yes, Senator.
    Senator Daines. Thank you.
    I look forward to voting this bill out of Committee, Mr. 
Chairman, and getting it signed into law as soon as possible.
    I yield back my time.
    Senator Lee. Thank you, Senator Daines.
    Senator Heinrich.
    Senator Heinrich. Thank you, and Senator Daines, I look 
forward to supporting your legislation.
    Mr. Nedd, do you believe the BLM's consultation with tribal 
officials thus far has been sufficient in the case of Chaco 
Canyon and the leasing in the area?
    Mr. Nedd. Senator, based on the information I've been 
given, it's ongoing consultation. So, I'm not in a position to 
say if it's sufficient as yet since it's ongoing.
    Senator Heinrich. I appreciate that answer.
    Mr. Chair, I would urge you, relating to your question to 
Mr. Nedd about the adequacy of the consultation process to also 
ask the tribes that same question, because I think they would 
share a different perspective than what you heard earlier in 
this hearing.
    The unfortunate truth of our current consultation policy is 
that it only requires agency officials to meet with tribal 
leaders. It does not require the agency to listen to what they 
have to say or to incorporate their concerns into the 
management plan. So I would ask Mr. Nedd once again, how is the 
BLM incorporating the information that you have learned from 
tribal consultation meetings thus far into the upcoming 
management plan?
    Mr. Nedd. Well, Senator, again, consultation is an ongoing 
process and so the BLM takes input from the tribes or the 
members and then would make adjustment accordingly. In terms of 
specific changes for this plan, I could not give you that right 
here since I'm not very familiar with the details of the plan.
    Senator Heinrich. So, Mr. Chair, once again, I would raise 
the issue that repeatedly we have seen parcels in this area 
offered up for lease, a huge hue and outcry from both elected 
and community officials across New Mexico, tribal officials 
across New Mexico and then those get pulled back. So the 
impression that that leaves many tribal leaders with is that 
they are not being listened to in this case. And I think that 
perspective informs why we have legislation proposed at this 
time.
    I want to turn to the Buffalo Tract legislation. I think we 
can all agree that the parcels at issue in the Buffalo Tract 
Protection Act are not typical BLM parcels, at least in New 
Mexico. Three of the four are less than 1,000 acres in size 
and, more importantly, they are intermixed directly among 
residential development. So the consequences of mineral 
development, and I will be clear, my father and my grandfather 
both worked in mineral development and mining in Nevada for 
many years, but including gravel mining are very different in a 
residential context than in more rural or, certainly, more 
unpopulated areas that the BLM largely manages. The health 
impacts are more concentrated, the impact on wildlife is more 
detrimental when most of the surrounding area is already built 
up.
    So once again, Mr. Nedd, I would just ask how the BLM took 
into account the development pattern of this area when deciding 
that the best use of this area is a gravel mine rather than, 
for example, recreation or wildlife habitat?
    Mr. Nedd. So, thank you for the question, Senator.
    Normally, the BLM will start from a scoping and based on 
the scoping the local community or stakeholders will identify 
the issues. BLM will then proceed to do some analysis on that.
    It is my understanding that with the cooperating agency 
with the inclusion of tribe, BLM has been going through this 
planning process to determine how best to manage the values in 
that area.
    Senator Heinrich. I think you very adequately described the 
NEPA process in terms of moving from scoping to action.
    What concerns me is that when looking at the two local 
pueblos, both of them are vociferously opposed in this case. 
When looking at the community groups, they are opposed. The 
County is opposed. I am still looking for the community voice 
that is not opposed to this particular location for a gravel 
mine.
    So I would just leave it at that, Mr. Chair, and I think 
you have a more complete picture now for why legislation is 
absolutely required in both of these instances.
    Senator Lee. Thank you, Senator Heinrich. I appreciate your 
insight on that.
    Mr. Nedd, let's go back to you for a minute.
    Turning to Senator Wyden's bill, S. 1262, the title of this 
bill is the Oregon Recreation Enhancement Act. The bill would 
significantly create two new roadless recreation areas. Those 
are terms I don't often hear together, roadless and recreation 
area, but these would total 120,000 acres. The same bill, as I 
understand it, would also add 60,000 acres of new wilderness to 
an existing wilderness area that is 35,000 acres, known as the 
Wild Rogue Wilderness Area.
    Your testimony mentioned that two of the proposed 
recreation areas cover O&C lands that are part of the timber 
harvest land base under the BLM's 2016 Resource Management 
Plan.
    Under this legislation, the Wyden bill, new roads and also 
temporary roads would, if I understand it correctly, be 
prohibited in the recreation areas. Is that correct?
    Mr. Nedd. That is correct, Mr. Chairman.
    Senator Lee. Given those restrictions, the fact that we 
would be prohibiting new roads and temporary roads from this 
area, what impact might those restrictions have on needed 
forest management to address wildfire risk?
    Mr. Nedd. Mr. Chairman, we believe the bill allows for the 
treatment or the dealing with wildfire. However, timber harvest 
and timber production, we think it would have a significant 
impact.
    Senator Lee. What kind of impact? How would you describe 
what kind of loss both economically in terms of timber receipts 
would the recreation area designation pose?
    Mr. Nedd. Well, I think from timber receipts, I don't have 
an exact number to give you, Mr. Chairman, but under the 
management plan, I believe, it was about 200 or 2.7 or 2.78 
million board feet or something to that effect. So it would 
impact the development of that or the harvesting of that timber 
and without any roads, whether it's temporary or permanent, 
will not be able to get to that timber.
    Senator Lee. Right. That, in turn, will have a pretty 
significant impact on people who live in and around that area 
and who depend on that as a source of employment. Is that 
correct?
    Mr. Nedd. That's my understanding, Mr. Chairman.
    Senator Lee. Will you be working with local counties and 
other stakeholders to continue to assess the economic impact 
this might have?
    Mr. Nedd. Currently we're doing an analysis. So yes, it 
would include speaking with stakeholders, that would include 
county.
    Senator Lee. Okay.
    Interestingly enough, notwithstanding its name, in 
reviewing the purpose of these recreation areas, the purpose is 
measured by the intended effect of them, it does not appear to 
be focused on recreation. Based on BLM's reading of the 
legislation, does the BLM have a clear understanding of what 
recreation uses and purposes would be covered in those 
recreation areas?
    Mr. Nedd. Mr. Chairman, I think we would like to work with 
the sponsor to clarify the language. However, we believe if it 
was designated, it would prohibit access to trailheads. It 
would prohibit access to scenic areas. And as America gets 
older, America needs to have a different way to reach to those 
destination points. So we would love to work with the sponsor 
to clarify and understand better what would be impacted.
    Senator Lee. Right.
    The bill also withdraws hundreds of thousands of acres from 
mineral exploration and mineral development. And while this 
excludes existing mineral rights, what can you tell me about 
what guarantees those leaseholders have that the other 
restrictions, especially the limited road access, would impact 
their ability to develop their claims?
    Mr. Nedd. So, Mr. Chairman, the bill recognizes valid and 
existing rights, so a valid and existing right, assuming if 
it's a mineral and its validity is passed, the BLM will have to 
work with the client to provide access to it. So my 
understanding is if there's a valid and existing right, they 
would be able to develop that right.
    Senator Lee. Okay. And that protection extends to and 
includes their ability to access it, notwithstanding the 
roadless provisions.
    Mr. Nedd. If it's valid and existing, yes.
    Senator Lee. Okay.
    I want to talk to you next about the Buffalo Tract 
Protection Act, S. 526.
    This is a bill that would withdraw about 4,000 acres of 
four parcels of BLM land, known as the Buffalo Tract, from sand 
mining and gravel mining. This is a small area that was 
appraised as including approximately 36 million tons of mainly 
red dog shale, the kind of rocks used for maintaining hiking 
trails and replacing grass lawns with rock yards in the 
southwestern region of the United States.
    Population growth in Albuquerque is booming which means 
that new homes and trails need nearby sources of gravel. If the 
gravel in the Buffalo Tract were put up for sale, would BLM 
expect it to be competitively bid?
    Mr. Nedd. We believe, yes, Senator, yes, Mr. Chairman.
    Senator Lee. In fact, do you know of companies that would 
likely be interested in it?
    Mr. Nedd. My understanding is there is interest in the 
area.
    Senator Lee. Okay. How much value is this resource? Is it 
something you would describe as substantial?
    Mr. Nedd. I would call it significant.
    Senator Lee. Certainly not de minimis, not something to be 
cast aside.
    I also want to talk about the Ruby Mountains Protection 
Act, 
S. 258.
    The Forest Service geological analysis of the Ruby 
Mountains determined that oil and gas potential for the area 
was one that they would describe as ``low to no potential.'' Is 
that right?
    Mr. Beum. Yes, Mr. Chairman.
    Senator Lee. And the Forest Service also recently rejected 
BLM's request to examine the suitability of the opening of the 
area to development. Is that accurate?
    Mr. Beum. Yes, the Forest Supervisor issued a decision last 
week confirming the ``no leasing'' alternative.
    Senator Lee. Have any local interests objected to the 
Forest Service's rejection of the oil and gas leasing in the 
Ruby Mountains?
    Mr. Beum. Mr. Chairman, we have not. We did not receive any 
objection to the decision opposing the ``no leasing'' 
alternative.
    Senator Lee. Okay.
    This has been very helpful. I want to thank you both for 
coming here.
    We will keep the record open for two weeks so that members 
can supplement the record or ask additional questions.
    I want to thank you both for your service and for your 
willingness to come and testify today.
    We stand adjourned.
    [Whereupon, at 3:48 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             [all]
</pre></body></html>
